P Z (opm. cm

£ eouV"t"
©

p Ut? I i's UecT)

District Court Of Appeal Of The State Of Florida
Fourth District
CHALIN MERR1HEW,
Appellant,
v.
STATE OF FLORIDA,
Appellee, iNo. 4D19-3301
[November 25, 2020]
Appeal from the Circuit Court for the Nineteenth Judicial Circuit,
Martin County; Lawrence M. Mirman, Judge; L.T. Case No.
432017CF000940A.
Carey Haughwout, Public Defender, and David John McPherrin,
Assistant Public Defender, West Palm Beach, for appellant.
Ashley Moody, Attorney General, Tallahassee, and Heidi L. Bettendorf,
Assistant Attorney General, West Palm Beach, for appellee.
Per Curiam.
Affirmed.
Gerber, Klingensmith JJ., and Nutt, James, Associate Judge, concur.

*

*

*

Not final until disposition of timely filed motion for rehearing.

F3

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FOURTH DISTRICT, 110 SOUTH TAMARIND AVENUE, WEST PALM BEACH, FL 33401
January 13, 2021
CASE NO.: 4D19-3301
L.T. No.:
432017CF000940A
v.

CHALIN MERRIHEW

STATE OF FLORIDA
Appellee / Respondent(s)

Appellant / Petitioner(s)
BY ORDER OF THE COURT:

ORDERED that appellant’s December 21,2020 pro se motion for rehearing is denied.

Served:
cc: Attorney General-W.P.B.
Heidi Lynn Bettendorf

Public Defender-P.B.
Chalin Merrihew

David John McPherrin

kr
r.

%
S

LONN WEISSBLUIVI, Clerk
Fourth District Court of Appeal

p^ge '2^7

A 'V'HvcU *w e>vi" A.'Z-

Filing # 98009209 E-Filed 10/29/2019 09:25:14 AM

IN THE CIRCUIT COURT OF THE NINETEENTH JUDICIAL CIRCUIT
IN AND FOR MARTIN COUNTY, STATE OF FLORIDA
STATE OF FLORIDA,
Petitioner,

Case No.: 2017CF000940
Judge: Sherwood Bauer

and
CHALIN MERRIHEW,
Defendant.

ORDER ON MOTION TO WITHDRAW PLEA
(AFTER SENTENCE)

f

THIS CAUSE having come before this Honorable Court on the Defendant’s motion
to withdraw plea—after sentencing, upon review of the motion, review of the recording of
October 4,2019 hearing, and court file it is hereby;
ORDERED that a defendant, in order to set forth a basis for the withdrawal of a plea
after sentencing, must show that a manifest injustice occurred. This would be initially set
forth in the motion and if there are any factual issues to be resolved, the matter would be
set for a hearing. In this matter, the record is complete as the events which the Defendant
now claims show errors.
Factually, the Defendant first claims that he had filed a motion to withdraw his plea
prior to sentencing. Jhis is accurate. His attorney adopted the motion and it was set for a
hearing on October 4, 2019. The entire time that the Defendant was before the court is
recorded and this Court reviewed the audio/video of the proceedings. i
The Defendant in his new motion states that when he attempted to raise the issue
that fee bb gun in question was inoperable and therefore the charge Of it being a deadly
weapon could not be legally supported, " Judge Sherwood Baiter countered that it could
still be deadly because defendant could use it to bludgeon or club the victim. ” The record
reflects that this (or anything like it) was stated by the Judge. The Defendant, in his motion,
then states that in response he "countered that not one witness depositioned evidence that
bludgeoning or clubbing with the toy bb inoperable gun occurred." The record reflects
that this (or anything like it) was stated by the Defendant
The Defendant in his new motion states that after the discussion above (which the
record reflects did not occur). “Judge Bauer reffered to state prosecutor Richard Bodeck
who just printed out the Robbery statute and directed defendant’s attorney James Regan
Eiect uncaHy Filed Martffi 10/29/2019 09:25 AM
>

i/\pV tviVe*eVi'ow<dly

sbcfe

meti+'-s, bu.VsC.'vNfU/

fe.-KKoAev'

m

cou/+'s
erffi'ce., bu.-V'
occureA

f>dge |0

Ake. e*A-

_____I

and Defendant to an enclosed side office where Regan proceeded to coerce the defendant
to abandon his argument...and to just "accept the plea or you ’ll lose your 25 year cap’ and
‘be remorseful.”’ The record reflects that Judge Bauer did not direct the prosecutor to do
anything, except to give his opinion on whether the State would proceed with the charge
including if they believed it is a deadly weapon. The Judge never directed the Defendant
or his attorney to a. side office. The record shows that at no time during the court
appearance did the Defendant or his attorney go to a side office. The entire event occurred
in opai court at the lectern. What the attorney said to the Defendant is unknown to the
Court, however the discussion between the Judge, the Defendant, his attorney, and the State
did openly discuss the possibility of the withdrawal of die 25 year cap at sentencing - if
the plea were withdrawn.

kS
AntAW&r

__ The Defendant adds an unsupported claim that the scoresheet is incorrect at "91 ”
.joints and should be "89.7." The scoresheet is in the record and the point total was agreed
to by the parties and the math was correctly completed by the Court after removal of 2
items from the Defendant’s prior record. The Court has reviewed the scoresheet and it cW<v\ appears to be correctly calculated. If there is an issue, the Defendant can file a proper
X <T<A motion, it is not a basis to withdraw the plea.

rt-cH9%
■My-e, wuoH
Vewv/
The Defendant adds that his attorney failed to present his “parent’s leniency letters ”
owswe^ 1k CV ■ cotndc 31 t^le sentencing hearing. If the attorney failed in some regard to properly present the
”3^ y «oHc>’rv^£!Y Defendant’s case, the Defendant can file a proper motion, it is not a basis to withdraw the
To He, nWii i * ujeHy Pleag, We.
i
.
t >« * The factual basis claimed in the motion is unsupported by the record and there is no
^ atftry, w ov~ Ac initial showing of any fact which supports a claim of manifest injustice which could require
w'^eViv yoursetP-to a hearing. None will be set The motion is denied,
evvee apy Ik l\*>^
twiAd^. •H'^s \u<>4e \‘Ves
4<> Ve fWv/ ojH*
DONE AND ORDERED on this the 29th day of October, 2019, in Martin County,

f^--^hK-l|^0fFl0rida-

"0
Ige

cc:
Clerk of Court - Martin County
Office of the State Attorney - Martin County
Defendant
1A review of the entire proceeding which took place on October 4,2019 on the Defendant’s original motion
to withdraw the plea reflects a different picture than the Defendant paints in this motion. The Court verified
that die motion was filed by the Defendant pro-se, and that it was adopted by the attorney. The Court
inquired initially if the Defendant wished to proceed, but did caution that ifthe motion were granted that it

288

ucfkcWl sKfe'-

v-W- "X- W'vs e/Sc-©v4ed.
s\Te,
office /.Wf-iV vms

vV was p&zr 'He,
vvof•\Ut-

Ma&

clw^e.

WU^tAW^c-Ufloj
^
XuA<re,

McPkeWVt
Sherwood
Circuit Coi

TfcJ '/yo'V

%

Additional material
from this filing is
available in the
Clerk's Office.
i
i

